Department of Homeland Security
   Ofﬁce of Inspector General


            Efficacy of DHS Grant Programs 





OIG-10-69                                      March 2010
                                                            , Offke ofinSpector, Ge'.'t!ral

                                                             U.S. Department of Homeland S~curity
                                                             Washington, DC 20528




                                                             Homeland
                                                             Security
                                       MAR 2 2 2010


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Federal Emergency
Management Agency's efforts to mitigate duplication or redundancy within the
department's various preparedness grant programs. It is based on interviews with
employees and officials of relevant agencies and institutions, direct observations, and a
review of applIcable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     ~d(.~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary ........................................................................................................... 1
 


Background ........................................................................................................................ 2 


Results of Audit ................................................................................................................. 4 


     Preparedness Grant Program Applications Are Not Compared or Coordinated ......... 4 

        Legislation Creates Barriers to Coordination ........................................................ 5 

        Departmental Processes and Organizational Structures Present Barriers to 

          Coordination ....................................................................................................... 7 

        State-level Barriers Impede Coordination ........................................................... 12 


     Grant Application Processes Can Become More Efficient ........................................ 14 

        Inconsistent or Redundant Grant Application Requirements Preclude Efficient 

          Planning ............................................................................................................ 14 

        Review Panels Differ Across Grant Programs ..................................................... 17 

        Existing Grant Application Timelines Are Not Arranged Optimally .................. 19 


     Conclusion ................................................................................................................. 19
 

     Recommendations ...................................................................................................... 20 

     Management Comments and OIG Analysis .............................................................. 20 



Appendices
     Appendix A:           Purpose, Scope, and Methodology ......................................................23 

     Appendix B:           Management Comments to the Draft Report ......................................25 

     Appendix C:           Description of Grant Programs ...........................................................31 

     Appendix D:           Major Contributors to This Report .....................................................34 

     Appendix E:           Report Distribution .............................................................................35 




Abbreviations
     DHS                   Department of Homeland Security 

     FEMA                  Federal Emergency Management Agency 

     OIG                   Office of Inspector General 

OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                In FY 2008, the Federal Emergency Management Agency awarded
                more than $3 billion to state and local governments; territories;
                tribal governments; and private, public, profit, and nonprofit
                organizations through preparedness grants and other financial
                assistance programs. These grants are intended to enhance
                preparedness, protection, response, recovery, and mitigation
                capabilities by funding such items as planning, training, exercises,
                equipment, and interoperable communications. Our objective was
                to determine whether the Federal Emergency Management Agency
                and other components of the Department of Homeland Security
                have identified and taken steps to mitigate duplication or
                redundancy within the department’s various grant programs.

                The Federal Emergency Management Agency can improve the
                efficacy of the grant application and review process by taking steps
                to mitigate duplication or redundancy within the agency’s various
                preparedness grant programs. The agency’s grant application
                process risks being ineffective because the agency does not
                compare and coordinate grant applications across programs to
                identify and mitigate potential duplications. Additionally, grant
                application processes are not efficient, requiring the Federal
                Emergency Management Agency and state and local grant
                administrators to expend time and resources fulfilling redundant
                requirements for the numerous grant programs.

                The report contains three recommendations to the Federal
                Emergency Management Agency that, when implemented, should
                improve both the effectiveness and the efficiency of the agency’s
                preparedness grant programs. In its comments on a draft of this
                report, the Federal Emergency Management Agency concurred
                with the recommendations and outlined plans and actions to
                improve the efficacy of these grant programs. We addressed
                technical comments the agency provided in its comments on the
                report, as appropriate. A copy of the comments in their entirety is
                in Appendix B.




                         Efficacy of DHS Grant Programs 


                                     Page 1 

Background
             The Federal Emergency Management Agency (FEMA) coordinates
             the federal government’s role in preparing for, preventing,
             mitigating the effects of, responding to, and recovering from all
             natural or manmade domestic disasters, including acts of terror.
             Following the September 11, 2001 attacks, federal preparedness
             guidance and financial assistance evolved and expanded. The
             President signed Homeland Security Presidential Directive 8,
             National Preparedness, December 17, 2003, to establish policies
             strengthening the preparedness of the United States. This directive
             required a national all-hazards preparedness goal, established
             mechanisms for improved delivery of federal preparedness
             assistance to state and local governments, and outlined actions to
             strengthen preparedness capabilities of federal, state, and local
             entities.

             Congress also increased its attention on national preparedness and
             homeland security by passing legislation to authorize modified or
             additional preparedness initiatives and assistance programs.
             Subsequently, Department of Homeland Security (DHS) grant
             programs implemented numerous and sometimes competing
             objectives addressed in various post-9/11 laws, strategies, plans,
             and directives.

             In FY 2008, FEMA awarded more than $3 billion to state and local
             governments; territories; tribal governments; and private, public,
             profit, and nonprofit organizations through preparedness grants and
             other financial assistance programs (referred to collectively as
             grants). DHS preparedness grants are intended to enhance
             preparedness, protection, response, recovery, and mitigation
             capabilities throughout the Nation by funding such items as
             planning, training, exercises, equipment, interoperable
             communications, and personnel costs.

             Within FEMA, the Grant Programs Directorate is responsible for
             business operations, training, policy, and oversight of all FEMA
             grants. This new directorate was created on April 1, 2007, in
             response to the Post-Katrina Emergency Management Reform Act
             of 2006, to consolidate the operations of all FEMA grants under a
             single organization. The Grant Programs Directorate was formed
             from three legacy organizations:




                      Efficacy of DHS Grant Programs 


                                  Page 2 

   �	 FEMA Grants Management Branch,
   �	 DHS Office of Grants and Training – Office of Grant
      Operations, and
   �	 DHS Office of Grants and Training – Preparedness 

      Programs Division. 


The Post-Katrina Emergency Management Reform Act of 2006
consolidated not only grant operations, but also preparedness
grants that previously had program responsibility residing in
various DHS organizations.

The Grant Programs Directorate reviews, negotiates, awards, and
manages FEMA’s preparedness grant portfolio; provides subject
matter expertise in response to regional office and stakeholder
inquiries; develops grant guidance and formulates risk
methodology to support grant allocations; and analyzes
investments. This Directorate also receives subject matter
expertise through collaboration with the National Preparedness
Directorate and U.S. Fire Administration within FEMA, and other
DHS partners such as the U.S. Coast Guard, Transportation
Security Administration, Office of Infrastructure Protection, and
Office of Emergency Communications.

Our review focused on 13 preparedness grant programs shown in
Table 1. These 13 programs provide funding for a variety of items,
including planning, training, exercises, and equipment.
We focused our review on planning activities and interoperable
communications equipment because they were allowable costs in
multiple grant programs. For additional details on our purpose,
scope, and methodology, see Appendix A. For a description of the
13 grant programs’ objectives, see Appendix C.




         Efficacy of DHS Grant Programs 


                     Page 3 

                 Table 1. Grant Program’s Allowable Funding For Selected Activities
                                                                         Funding Activity
                                  Grant Program                                 Interoperable
                                                                    Planning
                                                                               Communications
                 Homeland Security Grant Program                       �               �
                  State Homeland Security Program                      ��             ��
                  Urban Areas Security Initiative                      ��             �
                  Citizen Corps Program                                ��             ��
                  Metropolitan Medical Response System                 ��             ��
                 Assistance to Firefighters Grant Program               �             ��
                 Buffer Zone Protection Program                        ��             ��

                 Commercial Equipment Direct Assistance Program         �             ��

                 Emergency Management Performance Grant
                                                                       ��             �
                 Program
                 Emergency Operations Center Grant Program             ��             ��
                 Interoperable Emergency Communications Grant
                                                                       ��             ��
                 Program
                 Port Security Grant Program                           ��             ��

                 Regional Catastrophic Preparedness Grant Program      ��

                 Transit Security Grant Program                        ��             ��




Results of Audit
     FEMA’s preparedness grant application process does not promote effectiveness
     and efficiency. The grant application process risks being ineffective because
     FEMA does not compare and coordinate grant applications across preparedness
     programs to identify and mitigate potential duplications. Without evaluating
     grant applications across grant programs, FEMA cannot ascertain whether
     multiple funding requests are being submitted for similar purposes.

     Additionally, FEMA’s preparedness grant application processes are not efficient
     because they require FEMA and the states to expend time and resources fulfilling
     redundant application and review requirements for the numerous grant programs.
     Consequently, limited federal and state resources are not being expended in the
     most beneficial manner.


     Preparedness Grant Program Applications Are Not Compared or
     Coordinated
            The preparedness grant application process risks being ineffective because
            FEMA does not compare and coordinate grant applications across
            preparedness programs to mitigate potential duplications and redundancy.

                                Efficacy of DHS Grant Programs

                                               Page 4
Barriers at the legislative, departmental, and state levels impede FEMA’s
ability to coordinate these programs. Since grant programs may have
overlapping goals or activities, FEMA risks funding potentially
duplicative or redundant projects.

       Legislation Creates Barriers to Coordination

       Three types of legislative barriers hinder FEMA’s ability to
       identify and minimize duplication and redundancy within
       preparedness grants. First, Congress enacts legislation for
       preparedness grants that have similar goals. Second, Congress
       appropriates funds on an annual basis for these grants and in most
       instances, the legislation mandates disparate application and award
       milestones. Finally, the annual appropriation law may contain
       congressional earmarks that dedicate funds towards specific grant
       projects, precluding FEMA from coordinating grant programs.

       Multiple Grant Programs Have Similar Legislated Goals

       The 13 grant programs we reviewed have similar legislated goals.
       At a broad level, these programs provide federal assistance to state
       and local governments, nonprofit organizations, emergency
       responders, and port and transit authorities to improve homeland
       security and emergency management capabilities. Specifically, the
       legislated goals of these grant programs focus on activities to
       prepare for or respond to acts of terrorism or other disasters.

       For example, states may request funding for planning projects
       through both the Urban Areas Security Initiative and the Regional
       Catastrophic Preparedness Grant Program. While the goals for
       both programs are directed at improving preparedness planning in
       high-risk urban areas, the Regional Catastrophic Preparedness
       Grant Program is focused on all-hazards planning, while the Urban
       Areas Security Initiative is focused on responding to acts of
       terrorism.

       In addition to the Urban Areas Security Initiative, other grant
       programs have legislated goals to prepare for, prevent, or respond
       to acts of terrorism. Specifically, state and local governments as
       well as port and transit authorities can request funds for, and
       respond to terrorist acts, through the State Homeland Security
       Program, the Port Security Grant Program, and the Transit Security
       Grant Program.




                Efficacy of DHS Grant Programs

                            Page 5
Disparate Milestones Are Legislatively Established

Legislation also mandates grant application processing and award
milestones; however, not all grants are set on the same schedule.
The 2008 Consolidated Appropriations Act, Public Law 110-161,
December 26, 2007, established two sets of milestones for 8 of the
13 grant programs we reviewed. The legislation required grant
applicants to submit applications for three of the grants in
March 2008, with awards due in May 2008, while applications for
five of the grants were due in April 2008, with awards in
July 2008. With grant review periods and award dates more than
2 months apart, FEMA may not have sufficient time to compare
the numerous applications submitted by each state for similar or
related projects to prevent duplication. While we are not
advocating that all applications be due on the same date, we are
identifying the disparate schedules as a potential barrier to
FEMA’s ability to coordinate related projects.

To illustrate, Figure 1 reflects the different legislated milestone
requirements for the Urban Area Security Initiative and the Transit
Security Grant Program. Both of these programs may be used for
costs to develop and implement homeland security support
programs, and adopt ongoing DHS national initiatives such as
enhancing preventive radiological and nuclear detection programs.
As shown in the figure below, FEMA must make award decisions
for the Transit Security Grant Program before completing its
review of Urban Areas Security Initiative applications, inhibiting
coordination of potentially related projects.

Figure 1. Legislatively Established Grant Milestones for Two Programs

       Transit Security Grant Program




                                                                   Grant Guidance Development Period
       1-25-08        3/10/08                  5/9/08
                                                                   Application Submission Period
                 Urban Areas Security Initiative                   Application Review Period




      1/20/08                        4/19/08             7/18/09
                       Legislative Processing Timeline




As another example, the State Homeland Security Program and the
Buffer Zone Protection Program both fund interoperable
communications equipment. However, legislation requirements


           Efficacy of DHS Grant Programs 


                                Page 6 

provide for different review periods and grant award dates that are
more than 2 months apart. The State Homeland Security Program
has the same milestones as the Urban Areas Security Initiative
while the Buffer Zone Protection Program’s dates align with the
Transit Security Grant Program.

Congress Earmarks Funds for Specific Purposes

Annual appropriation law may contain congressional earmarks that
fund specific grant projects. These earmarks limit FEMA’s ability
to ensure federal assistance is being provided to fund grant
recipients’ most urgent homeland security and emergency
management needs and priorities. They also inhibit FEMA’s
ability for corrective action on potentially duplicative investments
for grant recipients who received
grants through normal risk-based             Earmarks: Funds provided by
                                             Congress for projects, programs,
application processes for purposes           or grants where the purported
similar to the earmarked funds.              congressional direction
                                                circumvents otherwise applicable
                                                merit-based or competitive
For example, one county in                      allocation processes, or specifies
Washington applied for the                      the location or recipient.
Emergency Operations Center Grant            Source: Office of Management
in FY 2008. The state ranked the             and Budget
application as a low priority and the
project did not receive grant funding. However, the county
received an earmark for $1 million in the following year’s
FY 2009 Emergency Operations Center Grant appropriations,
although it may not have been the state’s highest priority. While
earmarks do not directly prohibit FEMA from comparing similar
projects funded by different grants, they do inhibit FEMA’s ability
to take action if a lower priority project with earmarked funds
overlaps with another higher priority project funded by a grant that
uses a risk-based allocation methodology.

Departmental Processes and Organizational Structures
Present Barriers to Coordination

In addition to legislative barriers, FEMA faces department-level
challenges that impede its ability to coordinate grant applications
across the many programs. Departmental barriers include:
    � Interpreting legislation,
    � Developing grant guidance,
    � Requiring investment justification details,
    � Reviewing applications, and



          Efficacy of DHS Grant Programs

                      Page 7
   �	 Coordinating with subject matter experts located in 

      separate program offices. 


Grant-Related Legislation Requires Interpretation

FEMA, or its predecessor organizations, created a barrier to
coordination in establishing separate stand-alone grant programs to
accomplish congressional objectives. Typically, once Congress
authorizes a grant to fund an emerging homeland security or
emergency management need, FEMA develops a new and separate
grant program. For example, Public Law 110-53, Implementing
Recommendations from 9/11 Commission Act, August 3, 2007,
directed FEMA to make grants to states for equipping, upgrading,
and constructing emergency operations centers. While the
legislation did not direct FEMA to establish a separate program,
FEMA interpreted the legislation as such. FEMA’s development
of separate grant programs promotes fragmentation and
complicates coordination at both the federal and state level.

Grant Guidance Is Developed for Individual Programs

Creating individual guidance for each grant program deters
coordination because the individual guidance documents establish
a separate identity for each program and each grant application will
be tailored specifically to the guidance. Grant guidance establishes
the individuality and details the scope of a grant program. The
substance of individual grant guidance includes identifying
funding priorities, describing the application and review process,
providing the investment justification template, and other year-to­
year changes.

The FEMA Grant Programs Directorate has the main responsibility
for issuing grant guidance, yet the directorate coordinates with
individual program offices to develop the substance of the grant
guidance for each individual grant program. The grant program
offices can be within or outside of the Grant Programs Directorate.
With the exception of the Homeland Security Grant Program,
which combines grant guidance for four interrelated grant
programs into one guidance document, individual grant guidance
results in a deterrence to coordination because of the number of
organizations involved.




         Efficacy of DHS Grant Programs 


                     Page 8 

Applications and Investment Justifications Request Different
Levels of Detail

Typically, the level of detail in grant applications and investment
justifications is not sufficient for FEMA to identify potential
duplication and redundancy. Investment justifications are a part of
a grant application and provide a template for the applicant to
describe the proposed project and demonstrate how it addresses
deficiencies in current capabilities. However, the level of detail on
each project makes it difficult to identify whether states are
applying for similar projects under another grant program. The
investment justification template for the State Homeland Security
Program, for instance, does not provide grant applicants the ability
to provide specific details on their proposed projects. The
investment template covers topics including critical infrastructure,
preparedness planning, and interoperable communications. It also
requests a high-level purpose statement, funding plan, and
outcomes.

As an example, one state submitted an investment justification
under the State Homeland Security Program to provide exercises to
emergency responders to reinforce the principles of the National
Response Framework and the National Incident Management
System. Similarly, the state requested funding through the
Emergency Management Performance Grant to develop, design,
and conduct exercises focusing on enhancing regional
collaboration and coordination and to reinforce the implementation
of the National Incident Management System. Both investments
address exercises related to the National Incident Management
System, but without additional details, FEMA cannot readily
identify whether these projects overlap.

Applications Are Reviewed At the Department Level Without
Considering Other Grant Programs

FEMA’s ability to determine whether the proposed grant
application investments contain duplicative or redundant requests
is impeded when grant applications and investment justifications
are reviewed one program at a time. After a grant application is
submitted, a review panel evaluates applications and proposed
investments. While the panel compares the proposed investments
to the grant guidance for that program, the panel does not compare
proposals against applications for other grant programs submitted
by the same grantee.



         Efficacy of DHS Grant Programs

                     Page 9
With the availability of funds from numerous individual
preparedness grant programs for similar purposes, applicants may
apply for multiple grant programs for the same items to maximize
their chances to fully fund a project. Eleven of the 13 programs
reviewed allow applicants to purchase interoperable
communications equipment, such as radios. Therefore, it is
possible for a single organization within a state to receive funding
from multiple grant programs for similar items. As one example, it
is possible for a law enforcement organization to build a cache of
radios through multiple grant programs, as shown in Figure 2
below. As these four programs undergo different review
processes, FEMA cannot readily identify whether funds requested
are for similar or overlapping projects.

Figure 2. Use of Multiple Grant Programs for Similar Equipment Requests




*
  Subject matter experts perform the technical review of investment proposals. FEMA
also has a role in the application process for all four grant programs.

FEMA has taken initial steps to coordinate application and
investment justification reviews for four individual grant programs.
The Homeland Security Grant Program is comprised of four
interconnected grant programs: (1) the State Homeland Security
Program, (2) Urban Areas Security Initiative, (3) Metropolitan
Medical Response System, and (4) Citizen Corps Program. During
the review process, state and local peer reviewers evaluate and
score applications and investment justifications for all four of the
individual grant programs in a single application submission and

           Efficacy of DHS Grant Programs 


                        Page 10 

review process. However, while state and local peer reviewers
have the capability to perform an internal comparison of grant
programs under the Homeland Security Grant Program, they do not
have access to applications and investment proposals submitted in
response to other grant programs with similar purposes or
allowable activities.

Separate Program Office Responsibilities Hamper Coordination

Grant program management split among several offices creates
organization barriers to coordination. Although the Grant
Programs Directorate is responsible for managing DHS
preparedness grants, program-specific management is split among
different directorates within DHS. FEMA has the lead for
managing the review and approval processes and coordinating
grant guidance, while separate organizations within DHS identify
the funding priorities, provide guidance input, and participate in
the review process. While each grant program has a guidance
document defining the application and review process for the
individual program, FEMA does not have an overarching policy to
outline the roles and responsibilities for coordinating applications
across grant programs.

As shown in Table 2, responsibility for the 13 grant programs we
reviewed is split among five different organizations.

 Table 2. Program Responsibility for Grant Programs

                                              FEMA National Preparedness
   FEMA Grant Programs Directorate
                                              Directorate
 � Homeland Security Grant Program            � Commercial Equipment Direct
   – State Homeland Security Program            Assistance Program
   – Urban Areas Security Initiative          � Regional Catastrophic
   – Citizen Corps Program                      Preparedness Grant Program
   – Metropolitan Medical Reserve System
                                              Transportation Security
 � Assistance to Firefighters Grant Program   Administration
                                              � Transit Security Grant Program
 � Emergency Management Performance
   Grant Program                              U.S. Coast Guard
 � Emergency Operations Center Grant          � Port Security Grant Program
   Program
 � Interoperable Emergency                    DHS Office of Infrastructure
   Communications Grant Program               Protection
                                              � Buffer Zone Protection Program



When subject matter experts, who define funding priorities and
review investment justifications, reside outside of FEMA, the


           Efficacy of DHS Grant Programs 


                        Page 11
 

agency’s ability to coordinate across grant programs is impeded.
For example, the Buffer Zone Protection Program is not
coordinated with other grant programs at the department level.
This program provides funding to secure predesignated critical
infrastructure sites, which are preselected by the DHS Office of
Infrastructure Protection. Once DHS selects the sites, local
officials work with site owners to develop security plans and
identify equipment needed to implement the plan. Because FEMA
does not have a process for ensuring applications are coordinated
across grant programs, the Office of Infrastructure Protection is
unable to validate with FEMA whether the applicant had requested
similar equipment items under other grant programs.

FEMA also encounters barriers to coordination when different
organizations within FEMA are responsible for managing
preparedness grants. The Grant Programs Directorate has
programmatic responsibility for 8 of the 13 programs we reviewed,
while the National Preparedness Directorate has programmatic
responsibility for 2 grant programs. Because these 10 grant
programs have overlapping funding activities and have different
organizations participating in the investment justification review
and approval process, FEMA cannot readily identify redundancy in
funding requests across the different grant programs. While
FEMA relies on the subject matter expertise that these
organizations provide, it cannot easily identify duplications in its
grant programs without an overarching policy outlining roles and
responsibilities for coordinating applications across grant programs
and across the different organizations.

State-level Barriers Impede Coordination

FEMA encounters barriers at the state level that impede its ability
to compare and coordinate grant applications and investments
across preparedness programs. States do not have an overall grant
strategy that identifies specific projects and their funding sources.
Additionally, there is not one organization within the state that has
visibility over all state entities that receive DHS financial
assistance.

Not All States Have Overall Grant Strategies

The three states we visited did not have overall, comprehensive
grant strategies. The states had various preparedness strategies or
plans that address target capabilities and identify critical goals,
objectives, and implementation steps. However, the plans did not


         Efficacy of DHS Grant Programs 


                    Page 12 

specifically address how the states are using funds from the
multiple DHS grants to improve homeland security preparedness.
A more comprehensive plan could provide states a tool to promote
coordination across the different grant programs which are now
planned and accounted for separately.

State-level Visibility Over All Grant Programs Is Not Centralized

FEMA cannot rely on the states to coordinate all preparedness
grant applications because grants are awarded to multiple
organizations within the state. At the three states we visited, none
of the states had an organization with visibility across all
preparedness grant programs. Some grants are awarded through
state administrative agencies while others bypass the state
administrative agency and go directly to recipients such as port
authorities, local fire departments, and first responders.

For grant programs where
the state administrative        Programmatic vs. Financial Responsibility
agency is involved, the
                             Programmatic Responsibility: Responsibility to
agency may not have          ensure that programs and projects are implemented
programmatic                 consistent with the grantee’s approved plans and
responsibility over the      according to the rules and regulations of the
                             awarding office. It also includes the ability to
program. In this case, the identify problems that may impede effectiveness of
state administrative         the federally funded programs or projects and
agency would not be          serves to verify program implementation.
reviewing grant projects     Financial Responsibility: Responsibility to
from the same                measure grantees’ compliance with federal
                             policies and regulations.
perspective as a subject
matter expert or be able     Source: FEMA
to readily identify
duplication or redundancy. The prerogative of each state to
determine its own organizational structure may or may not
coincide with the corresponding federal grant program
responsibility.

For example, at two of the three states visited, subject matter
experts outside of the state administrative agency prepared the
investment justifications for the Interoperable Emergency
Communications Grant Program. The state administrative agency
primarily ensured compliance with grant guidance and
administrative requirements, but did not have programmatic
responsibility for the projects and funding requested.




          Efficacy of DHS Grant Programs 


                      Page 13 

            Additionally, grant funding may be sent directly to an organization
            outside of the state administrative agency. For example, the Port
            Security Grant Program funds go directly to a fiduciary agent
            selected by the port. At two of the three states visited, the
            fiduciary agency was not the state administrative agency and
            therefore the state was not aware of projects being funded through
            this program. Without the state having visibility over all
            preparedness grants, FEMA cannot rely on states to identify
            duplication and redundancy across DHS grant programs.


Grant Application Processes Can Become More Efficient
     FEMA’s grant application processes are not efficient because application
     requirements, review processes, and timelines vary among the grant
     programs. These numerous processes and requirements can be
     burdensome on federal and state resources because this creates redundant
     work for both federal and state personnel. Therefore, coordinating and
     streamlining these application processes may help ensure the most
     efficient use of limited federal and state resources.

            Inconsistent or Redundant Grant Application Requirements
            Preclude Efficient Planning

            FEMA issues separate annual guidance to outline the application
            processes and requirements for each grant program which creates
            burdensome requirements on both FEMA and grantees as the
            requirements differ across grant programs. Additionally, the
            multiple application processes have redundant requirements.

            Grant Requirements for Similar Grant Programs Differ
            Significantly

            Requirements in grant guidance vary across programs, regardless
            of the similarities of the grant program, making it difficult for
            states to have a streamlined planning process that is consistent
            across all grant programs. Differences include program priorities
            and investment justification templates that must be followed.

            Priorities. While considerable potential overlap exists in the
            activities supported by DHS preparedness grant programs, the
            priorities for these programs may differ. For example, the
            FY 2008 Urban Areas Security Initiative, Regional Catastrophic
            Preparedness Grant Program, and Emergency Management
            Performance Grant Program provide assistance to improve


                     Efficacy of DHS Grant Programs

                                Page 14
preparedness planning processes. However, each program focuses
on a different priority.

   �	 The Urban Areas Security Initiative provides funds to high-
      risk urban areas to build an enhanced and sustainable
      capability to prevent, protect against, respond to, and
      recover from acts of terrorism.

   �	 The Regional Catastrophic Preparedness Grant Program,
      which supports improved and expanded regional
      collaboration for all hazard and catastrophic events, also
      funds high-risk urban areas but includes surrounding
      regions as well. Additionally, this program focuses on
      eight national planning scenarios identified by the federal
      government as the most urgent for planning purposes
      among all levels of government.

   �	 The Emergency Management Performance Grant Program
      also supports state and local all-hazards emergency
      management programs and encourages applicants to
      address national planning scenarios in their work plans, but
      is focused on evacuation planning, logistics and resource
      management, continuity of operations planning, and
      recovery planning.

Since each preparedness planning program focuses on a different
priority, states have to undertake three separate planning and grant
application processes to request funding under each program.

Investment Justification Templates. Grant programs have different
investment justification templates as part of the application
process. This requires applicants to prepare investment
justifications or documents with unique information for each
program regardless of the similarities of the proposed funding
activities. These varied templates and program documents may
provide consistency for panels reviewing proposed project
proposals for the individual grant programs, but present an
administrative burden for grant applicants who must prepare
similar information in different formats.

For example, the Buffer Zone Protection Program requires
applicants to prepare two unique documents not required for other
grant programs. First, individual jurisdictions responsible for the
buffer zone are required to submit a Buffer Zone Plan to assist
them in identifying preventive and protective measures necessary


         Efficacy of DHS Grant Programs 


                    Page 15 

to protect a critical infrastructure and key resource site, mitigate
vulnerabilities, or close capability gaps. Next, the jurisdictions
complete a Vulnerability Reduction Purchasing Plan, a spending
plan that includes the planning activities and equipment necessary
to implement the Buffer Zone Plan. As these documents are
unique and integral to the program, they may present an
administrative burden to state grant administrators in fulfilling
these specialized requirements.

Grant Applications for Similar Programs Incorporate Redundant
Requirements

Grant applicants must perform redundant work to apply for DHS
preparedness grants, which is burdensome and time consuming.
The use of the website grants.gov has streamlined the application
process, but it still requires applicants to prepare and submit
redundant information if an applicant applies for multiple grants.

FEMA’s grant application process required each State
Administrative Agency, the designated applicant for 10 of the
13 grant programs reviewed, to complete an online grant
application seven times for the 10 grant programs. Submitting
these similar documents multiple times may increase the State
Administrative Agency’s opportunities for errors on these forms.
The process for the seven grant programs included similar
application, financial, and administrative compliance requirements,
as listed in Table 3.




         Efficacy of DHS Grant Programs 


                    Page 16 

 Table 3. Grant Program Filing Requirements
 Application Requirements
     �	 Application for Federal Assistance (SF 424)
     �	 Investment Justification or Plan
     �	 Disclosure of Lobby Activities (SF LLL)
     �	 Budget Information
           –    Budget Information – Non-construction Programs (SF 424A)
           –    Budget Information – Construction Programs (SF 424C)

 Standard Financial Requirements
     �	 Non-supplanting Certification
     �	 Assurances 

           –	 Assurances – Non-construction Programs (SF 424B) 

           –	 Assurances – Construction Programs (SF 424D) 

     �	 Certification Regarding Debarment, Suspension, and Other Responsibility
          Matters and Drug-Free Workplace Requirement

 Administrative Compliance Requirements
    �	 Federal Civil Rights Laws and Regulations
    �	 Services to Limited English Proficient Persons
    �	 Integrating Individuals with Disabilities into Emergency Planning
    �	 National Energy Conservation Policy and Energy Policy Acts
    �	 Environmental and Historical Preservation



FEMA also requires State Administrative Agencies to use two
online systems to complete and file investment justifications for
the Homeland Security Grant Program. First, the State
Administrative Agency must complete the State Homeland
Security Program and Urban Areas Security Initiative investment
justifications through the department’s Grant Reporting Tool.
Upon completion of the investment justifications, the State
Administrative Agency must submit the official copy of its final
investment justification through www.grants.gov with the grant
application. While these online tools helped to streamline the
application processes, they include an inefficient duplication of
effort for both federal and state grant administrators.

Review Panels Differ Across Grant Programs

Grant programs have separate review processes to evaluate funding
requests for each grant program, which requires FEMA to convene
multiple review panels to evaluate applications and investment
justifications. For all programs, FEMA verifies the applicant’s
compliance with administrative and eligibility criteria identified in
each grant program’s application kit. FEMA then sends the
eligible applications through an investment justification review
process to evaluate the merits of proposed investments against
grant guidance criteria. However, FEMA uses various types of



           Efficacy of DHS Grant Programs 


                       Page 17 

reviews to evaluate
proposed investments.                         Best Practice
The type of review      In 2005, FEMA incorporated the application process
and participants of the of four complementary grant programs into the
review panel are        Homeland Security Grant Program:

based on the grant       � State Homeland Security Program�
                         � Urban Areas Security Initiative�
program. For the 13
                         � Citizen Corps Program�
grant programs we
                         � Metropolitan Medical Response System�
reviewed, FEMA
employed 6 different    While the four grant programs retained their distinct
review processes,       and separate identities, the Homeland Security Grant
                        Program provides a single application kit and program
composed of different   guidance to facilitate coordination and management of
personnel such as       state and local homeland security funding. This also
federal, state, and     helps ensure that available funding is leveraged for
                        maximum impact.
local government
personnel; emergency    Source: FEMA
responders; and 

members of national associations, as shown in Table 4.
 


 Table 4. Grant Program Review Methodologies
 1. FEMA Review – FEMA headquarters components and/or regional offices review
 investments and make award determinations. (Emergency Management Performance
 Grant Program)
 2. DHS Review – DHS components outside FEMA, such as the Office of
 Infrastructure Protection review proposed investments. (Buffer Zone Protection
 Program Grant)
 3. Peer Review – A panel of state and local representatives from across the Nation,
 such as subject matter experts with experience in fire and emergency response, review
 and score proposed investments. (Homeland Security Grant Program, Assistance to
 Firefighters Grants)
 4. Federal Review – A panel of subject matter experts from across DHS, including
 components within FEMA and outside FEMA such as the DHS Office of Emergency
 Communications, review proposed investments. (Interoperable Emergency
 Communications Grant Program)
 5. National Review – A panel of subject matter experts from across DHS, including
 FEMA, non-DHS federal components, or national associations, review proposed
 investments. (Port Security Grant Program)
 6. Subject Matter Expert Review – National subject matter experts with experience
 in law enforcement and emergency response review and score proposed investments.
 (Commercial Equipment Direct Assistance Program)


These numerous panels create additional work for FEMA to
request review panel members from federal, state, and local
organizations, depending on the grant program. FEMA must also
train the numerous panels, provide review materials, oversee the
panels, and compile panel results. Consolidating panels where
grant programs have similar purposes or activities would provide a
more efficient use of federal, state, and local resources.



           Efficacy of DHS Grant Programs

                        Page 18
             Existing Grant Application Timelines Are Not Arranged
             Optimally

             Grant timelines do not promote the most efficient application
             preparation and review because they are not arranged in the most
             optimal sequence. In many cases, the timelines are legislatively
             established and do not allow states the opportunity to logically
             develop investment justifications that address overarching needs or
             define target capabilities while simultaneously focusing on more
             narrowly focused programs. For the 13 FY 2008 grant programs
             we reviewed, application timelines varied from March 1 to July 28,
             2008. Although the scopes of these programs may overlap, we did
             not identify a consistent pattern in the current sequence that would
             allow states to develop investment justifications for similar
             programs or related projects in a logical and efficient order.

             For example, law enforcement organizations that provide transit
             security may receive funding through the Transit Security Grant
             Program. These same organizations may also receive funding for
             law enforcement terrorism prevention–oriented planning, training,
             exercise, and equipment activities through both the State
             Homeland Security Program and the Urban Areas Security
             Initiative. While we have not defined the most optimal sequence
             for grant programs, an organized sequence would increase
             efficiency at the federal level by allowing grant reviewers to use
             the outcome from various panels as they review their investments
             and also by reducing the time that states may spend developing
             investment justifications. This would also provide a better review
             at the state level to ensure that redundant projects are not
             duplicated across grant programs.


Conclusion
     DHS preparedness grants are critical to help the country prepare for,
     respond to, and recover from disasters. Barriers at the legislative,
     departmental, and state levels preclude the agency from coordinating grant
     applications to avoid potential duplication and redundancy. Without this
     coordination, FEMA risks funding duplicative or redundant projects and
     cannot readily ascertain whether limited federal funds are awarded to grant
     recipients’ most urgent homeland security and emergency management
     needs and priorities.

     The numerous grant application and review processes can be burdensome
     on federal and state resources because of the redundant work imposed on


                      Efficacy of DHS Grant Programs

                                 Page 19
both federal and state personnel. As a result, limited federal and state
resources are being expended inefficiently.

We recognize that legislated requirements can complicate the application
and review of federal assistance programs. However, FEMA must
identify alternate ways to improve its grant application and review
processes operating within currently legislated requirements or work with
Congress to modify the processes to ensure the most efficient and
effective use of limited federal resources.

Recommendations
       We recommend that the Administrator, Federal Emergency
       Management Agency:

       Recommendation #1: Identify preparedness grant programs that
       may overlap or duplicate other programs and ensure the
       application and review processes for these programs are
       coordinated to mitigate potential duplication and redundancy.

       Recommendation #2: Document specific agency roles and
       responsibilities for cross-program coordination of grant application
       and review processes and ensure internal DHS coordination is in
       place. This may include establishing memorandums of agreement
       if roles are outside the Federal Emergency Management Agency.

       Recommendation #3: Work with Congress and state grant
       administrators to identify opportunities and implement actions to
       streamline and standardize multiple preparedness grant program
       application processes.

Management Comments and OIG Analysis
       The Director of FEMA’s Office of Policy and Program Analysis
       provided written comments on a draft of this report. FEMA
       concurred with our recommendations, but commented that the
       manner in which each program is implemented is driven by the
       Congress. As long as Congress authorizes and appropriates
       programs for singular purposes to specific constituencies, FEMA
       will carry out the programs as mandated.

       FEMA’s response also incorporated technical comments from the
       DHS Office of Infrastructure Protection, which shares
       responsibility with FEMA for the Buffer Zone Protection Program.
       We considered these comments when preparing the final report


                 Efficacy of DHS Grant Programs

                            Page 20
and, where appropriate, modified the report. We have incorporated
a copy of the comments in their entirety in Appendix B.

Management Comments to Recommendation #1. FEMA
concurred with the recommendation, and has already undertaken
an effort to review existing grant programs and identify ways to
minimize report and application burdens. Additionally, FEMA is
working with the department to consolidate grant programs where
activities are allowable under multiple grant programs. FEMA
recognizes that legislation may hinder its ability to eliminate grant
program overlaps, specifically when annual appropriation law
provides separate and distinct purposes, funding, and
administrative limitations.

OIG Analysis: This recommendation is resolved, but will remain
open until we have reviewed the results of the DHS and FEMA
analyses on consolidating overlapping grant programs and
minimizing application burdens.

Management Comments to Recommendation #2. FEMA
concurred with the recommendation and, along with the Office of
Infrastructure Protection, has developed a draft memorandum of
agreement identifying specific roles and responsibilities for
coordination of the Buffer Zone Protection Program. FEMA is in
the process of establishing memorandums of agreement with other
components. Additionally, FEMA acknowledged that it must use
multiple disparate systems to manage grant funds. It believes that
future implementation of the Non Disaster Grants System may
mitigate some issues identified in our report.

OIG Analysis: This recommendation is resolved, but will remain
open until FEMA finalizes and implements its memorandums of
agreement with the different components.

Management Comments to Recommendation #3. FEMA
concurred with the recommendation, and stated it has robust
interaction with Congress, the Office of Management and Budget,
and numerous stakeholder communities. FEMA is also
establishing a Preparedness Task Force, comprised of state, tribal,
local, and private sector experts. The Task Force will be charged
with evaluating FEMA’s preparedness efforts, including the
structure and requirements of its grant programs. FEMA expects
the task force will provide its recommendations for improving
these and other activities by the end of FY 2010.



         Efficacy of DHS Grant Programs 


                    Page 21 

OIG Analysis: This recommendation is resolved, but will remain
open until the task force completes its review and FEMA analyzes
its recommendations.




        Efficacy of DHS Grant Programs 


                   Page 22 

Appendix A
Purpose, Scope, and Methodology

                   The purpose of our audit was to determine whether FEMA and
                   other components of the department have identified and taken
                   steps to mitigate duplication or redundancy within the department's
                   various grant programs that impede the ability of recipients to
                   apply grant funds toward their most urgent homeland security and
                   emergency management needs and priorities.

                   We met with DHS Grant Policy and Oversight and FEMA officials
                   responsible for management and oversight of DHS preparedness
                   grants: Grant Programs Directorate, National Preparedness
                   Directorate, and U.S. Fire Administration. We also conducted
                   interviews with officials from FEMA Region III, Transportation
                   Security Administration, and U.S. Coast Guard.

                   We evaluated internal controls that were pertinent to the audit
                   objective. Specifically, we discussed FEMA and DHS financial
                   and programmatic responsibilities, including reviewing,
                   negotiating, awarding, and managing FEMA’s preparedness grant
                   portfolio; providing subject matter expertise in response to regional
                   office and stakeholder inquiries; developing grant guidance and
                   formulating risk methodology to support grant allocations; and
                   conducting investment analysis.

                   During our review, we reviewed recent Government Accountability
                   Office and OIG reports and testimony to identify prior findings and
                   recommendations. We researched and reviewed pertinent
                   legislation and FY 2006 through FY 2009 grant guidance, with a
                   focus on FY 2008 DHS grant program guidance.

                   We identified a universe of 43 DHS preparedness grant programs
                   and developed a relationship matrix to identify allowable funding
                   activity outputs (e.g., planning, interoperable communication,
                   equipment) associated with each program. We selected two
                   funding outputs, planning and interoperable communications, and
                   further reviewed the guidance for the 13 grant programs that
                   funded one or both of those outputs to determine whether
                   complementary or duplicative relationships exist among the
                   multiple grant programs.

                   We visited three states to understand the processes used to
                   coordinate grant program activities at the state level to mitigate
                   duplication among different DHS grant programs with similar
                   funding activities. We selected the states based on their high level
                   of FY 2008 funding:



                            Efficacy of DHS Grant Programs

                                       Page 23
Appendix A
Purpose, Scope, and Methodology

                      �   Commonwealth of Pennsylvania: $126 million
                      �   State of Washington: $92 million
                      �   Commonwealth of Virginia: $69 million

                   At the three states, we reviewed investment justifications and
                   project proposals submitted in response to DHS preparedness
                   grants. We met with homeland security coordinators, grant
                   administrators, peer reviewers, and subject matter experts to gain
                   an understanding of roles, responsibilities, and state application
                   requirements. We also interviewed other relevant personnel to
                   gain an understanding of the processes used to coordinate grant
                   program activities at the state level.

                   We conducted our audit from March to September 2009 at FEMA
                   headquarters in Washington, DC; FEMA Region III in
                   Philadelphia, PA; Transportation Security Administration in
                   Arlington, VA; and state administrative agencies, fiduciary agents,
                   and other state offices in Richmond, VA; Harrisburg, PA; and
                   Camp Murray and Tacoma, WA. We performed our work
                   according to generally accepted government auditing standards.
                   Those standards require that we plan and perform the audit to
                   obtain sufficient, appropriate evidence to provide a reasonable
                   basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a
                   reasonable basis for our findings and conclusions based on our
                   audit objectives.




                            Efficacy of DHS Grant Programs 


                                       Page 24 

Appendix B
Management Comments to the Draft Report



                                                                                 u.s. 11'1'"'''''''' or 11"",.I~nd s..,u,;"·
                                                                                 500 C 5,,,,,,. 5W                        .
                                                                                 1I'a;I"nj;IQn. DC ~n




                                                                     8F EMA
                                                                        h. ,,"


                                           fEB 19 11110



       MEMORANDUM FOR:               Anne L. Riclmrds
                                     Assistant Inspector General for Audits
                                     Oflice of Inspector GeneHiI

       FROM:                          David 1. Kaufman ~ c::::;: . ~ ~~ J'U....
                                      Director
                                      Oflke of Policy and Program Analysis

       SUBJECT:                       Comments on OIG Drdft Report, Efficacy ofDNS Gralll Programs

       Thank you for the opportunity to review and comment on the Office of Inspector General's
       (DIG's) subject draft audit report. As the Federal Emergency Management Agency (FEMA)
       works toward refining its programs, the DIG's independent :malysis of program pcrfonnanee
       greatly benefits our ability to continuously improve our activities. Technical comments have
       becn provided under separate cover.

       In general, it appears there is an assumption that all the preparedness grants have a similar
       purpose. They may have a similar goal. enhancing preparedness, but the purpose of each grant
       program is directed toward different SL'{;torS within the States (i.e. transit agencies, non-profit
       entities, fire departments) and their Homeland Security/emergency management efforts.

       The degree to which each grant program and the manner in which it is implemented is driven by
       Conb'fcssional direction docs not appear to be completely understood nor evident in the draft
       report. Starting with the instruction and mandates of the annual Appropriations Bill and
       continuing through the drafting and ultimate release of Grant Guidance, the work of the Grant
       Programs Directorate is to carry out the direction of the Congress. Extensive vetting of program
       guidance is conducted with FEMA and Department of Homeland Security (DHS) partners, the
       Office of Management and Budget (OM B), and Congress. Additionally, we engage in
       slgntlieant ellorts WIth eonslltuent groups to obtam fecdback and recommendations on
       implementation of programs. Each program h(15 nuance5 thllt must be addressed throug.hout the
       process.

       As long as Congress authorizes and appropriates programs for singular purposes to specific
       constituencies, FEMA is required to carry out thosc programs as mandated.




                                      Efficacy of DHS Grant Programs 


                                                     Page 25
 

Appendix B
Management Comments to the Draft Report




       Page 2

       The following includes comments that were provided by the DHS Office of Infrastructure
       Protection (IP), which shares responsibility with FEMA for the execution of the Buffer Zone
       Protection Program, and is organized by the draft report's titled sections:

           •    Table I: Grant Program's Allowable Funding AClivilies
                This table misrepresents the allowable funding activities ofthe Buffer ZOne Protection
                Program (BZPP) and other grant programs by focusing on only two aspects (planning
                and interoperable communications) that are common among the grants. The table is not
                an accurate depiction of the allowable funding activities of the BZPP or other grant
                programs. This provides an incomplete picture of the efficacy ofthe DHS Grant
                Programs, which is the purpose of the repon. If the table included all of the allowable
                funding activities for each grant program, it would illustrate the many key differences
                among the grant programs, reflecting the specific role of each. For example, the BZPP
                allows local jurisdictions to purchase equipment for the purposes ofprotcction and
                prevention, not only planning and interoperable communications.

           • Applications are Reviewed Withoul Considering Other Grant Programs
                FEMA and IP have taken steps to avoid duplication between the BZPP and other grant
                programs. The BZPP requires that the State or local jurisdiction identify in the Buffer
                ZOne Plan (BZP) and Vulnerability Reduction Purchasing Plan (VRPP) other funding
                sources that are being leveraged to address recommended enhancements; how the
                requested purchases support the achievement of goals and objectives from StatelUrban
                Area homeland security strategies; how the equipment requests support the National
                Priorities, specifically the implementation ofthe National Infrastructure Protection Plan
                and Statewide critical infrastructure protection programs; and the DHS Target
                Capabilities the proposed purchases support. To ensure grant programs are not funding
                the same activities or purchases, the responsible jurisdiction is also required to
                coordinate with any Urban Area Working Group, Regional Transit Security Working
                Group, or Area Maritime Security Committee in their area. Additionally, the BZPP
                funds are targeted to the first responders responsible for the protection ofthese specific
                Critical Infrastructure and Key Resource (CIKR) assets, typically a local law
                enforcement agency or department. No other grant programs specifically target the
                unique vulnerabilities of individual CIKR assets and the CIKR protection resource needs
                of first responders responsible for protecting them.

           •     Figure 2: Use ofMultiple Grant Programs for Similar Equipmem Requests
                While all four ofthe grant programs cited in Figure 2 allow grant funds to be used to
                purchase equipment from FEMA's Authorized Equipment List, the categories of
                equipment authorized for purchase through each program differ. Without this
                information, this Figure cannot provide a complete picture of the efficacy of the DHS
                Grant Programs, which is the purpose of the report. BZPP purchases are limited to those
                needed by State and local first responders to mitigate the vulnerabilities and equipment
                and resource gaps identified during the development ofBZPs and reflected in VRPPs,
                which identify the specific equipment needed by first responders to effectively protect




                                      Efficacy of DHS Grant Programs 


                                                     Page 26
 

Appendix B
Management Comments to the Draft Report




       Page 3

                CIKR assets. This differs from allowable communications purchases made under other
                larger grant programs, such as the State Homeland Security Grant Program, which can be
                used to purchase Statewide interoperability systems.

          •     Separate Program Office Responsibilities Hamper Coordination
                IP disagrees strongly with the draft report's statements on page 12 that, " ...the Buffer
                Zone Protection Program is not coordinated with other programs...the Office of
                Infrastructure Protection approves the requested equipment without coordinating with
                FEMA for duplication with other grant programs." The coordination and collaboration
                between FEMA and IP is a strong and crucial component of this program. The
                coordination ofthe BZPP between IP and FEMA is described in a draft Memorandum of
                Agreement (MOA) currently under review. With regard to grant duplication, as
                previously discussed, in an effort to specifically combat duplication the BZPP requires
                that the State or local jurisdiction identify in the BZP and VRPP other funding sources
                that are being leveraged to address recommended enhancements; how the requested
                purchases support the achievement of goals and objectives from StatelUrban Area
                homeland security strategies; how the equipment requests support the National Priorities,
                specifically the implementation of the National Infrastructure Protection Plan and
                Statewide critical infrastructure protection programs; and the DHS Target Capabilities
                the proposed purchases support. To ensure grant programs are not funding the same
                activities or purchases the responsible jurisdiction is also required to coordinate with any
                Urban Area Working Group, Regional Transit Security Working Group, or Area
                Maritime Security Committee in their area.

          •     Investment Justification Templates
                Most grants use a standard Investment Justification (IJ) Template which is a four page
                document requiring the applicant to justify the award. For example, the IJ for the State
                Homeland Security Program is little more than a checklist of previous funding with a
                brief strategy narrative (2,500 characters max).

                The BZPP application requires applicants to create a Buffer Zone Plan (BZP), which is
                much more than a typical grant application. The BZP is a strategic document developed
                by local law enforcement and jurisdictions with the support ofDHS that assists State and
                local law enforcement and other first responders in developing site-specific preventive
                and protective measures that make it more difficult to successfully target and attack
                critical infrastructure sites. It requires an on-site visit of the facility by local law
                enforcement, collaborative planning meetings between local law enforcement and the
                facility owner/operator, and may include specialized evaluations (e.g., vulnerability
                assessments, blast modeling, assault planning) by DHS/IP CIKR protection subject
                matter experts. Development of the BZP is an integral part of the BZPP, as its
                development promotes and enhances coordination and collaboration between CIKR
                facility owners/operators and the first responders responsible for protecting or responding
                to the site, ensures that funds are applied directly to actual gaps in site prevention and




                                       Efficacy of DHS Grant Programs 


                                                      Page 27
 

Appendix B
Management Comments to the Draft Report




       Page 4

                protection capabilities of first responders, and serves as a formal planning docwnent for
                both the facility and first responders.

                While understanding that the BZP and VRPP process may be more involved and time
                intensive than a standard IJ, the collaborative security planning that goes into the
                development of the two docwnents is perhaps the most important aspect of the Program,
                and provides DHS with the best visibility into the effect of the grants by ensuring they
                address gaps identified during the BZP development process. The BZPs for each facility
                are based on detailed assessments of the facility and a gap analysis of the local law
                enforcement's capabilities. This assessment information leads the local law enforcement
                to identify specific equipment or planning needed to fill those prevention and protection
                capability gaps. No other grant programs have a comparable means of accurately
                identifying and specifically targeting the unique vulnerabilities of individual CIKR assets
                and the CIKR protection resource needs of first responders responsible for protecting
                them.

       With respect to the draft report's three recommendations, FEMA concurs with all of the
       recommendations. Specific comments on the recommendations are provided in our responses
       below:

       Recommendation 1: Identify preparedness grant programs that may overlap or duplicate other
       programs and ensure the application and review processes for these programs are coordinated to
       mitigate potential duplication and redundancy.

       Response: FEMA concurs with this recommendation. FEMA has already undertaken an effort
       to review existing grant programs and to look at ways to minimize report and application
       burdens. In addition, FEMA is working closely with the Department to consolidate grant
       programs where activities are allowable under multiple grants. However, some grant programs
       are identified by name in annual Appropriations Acts, and FEMA has understood that Congress
       attaches separate and distinct purposes for each, separate funding streams, and administrative
       limitations (i.e. cost-share requirements, one year money vs. no year money, etc).

       Also, the review process and timelines are driven by Congressional mandates for many of the
       programs. Further, some programs are co-managed with other DHS components, such as
       Customs and Border Protection, Transportation Security Administration, Office of Infrastructure
       Protection, and the United States Coast Guard, requiring FEMA to work closely with those
       agencies to coordinate these processes. FEMA coordinates with these partners to conduct the
       most efficient field and national reviews of applications, taking into account the different
       structures in place in these agencies.

       In some cases, legislation may hinder our ability to eliminate overlap among some programs. For
       example, ferry systems are eligible to apply in both the Port and Transit Security Grant
       Programs, although Grant Programs Directorate (GPD) mandates that applicants can only apply




                                       Efficacy of DHS Grant Programs 


                                                     Page 28
 

Appendix B
Management Comments to the Draft Report




       Page 5

       in one or the other program, legislation requires FEMA to make the systems eligible for either
       program.

       In reference to the statement that the level of detail in grant applications/investment justifications
       is insufficient, we hear the exact opposite from stakeholders regarding the level of detail in grant
       applications and lJ submission requirements. Stakeholders tell us that the guidance needs to be
       streamlined and the application/lJ submission process simplified.

       Although States may not have a written grants strategy, nor are they required to do so, they do
       have established methods to oversee the use of grant funds. The States and urban areas are also
       required to have a Homeland Security Strategy and the expenditure of grant funds should support
       the goals and objectives identified in the Strategy. Additionally, our monitoring provides the
       opportunity to verify these State developed mechanisms are in place.

       Recommendation 2: Document specific agency roles and responsibilities for cross-program
       coordination of grant application and review processes and ensure internal DHS coordination is
       in place. This may include establishing memorandums of agreement ifroles are outside the
       Federal Emergency Management Agency.

       Response: FEMA concurs with this recommendation. We believe the future implementation of
       the Non Disaster (ND)-Grants system may mitigate some of the issues noted. For example, a
       grantee's identifying information will not have to be entered into the system for subsequent
       applications as the system will pre-populate certain fields of the application.

       As noted in IP's comments on the Report, IP and FEMA have established specific roles and
       responsibilities for coordination of the BZPP in a draft MOA that is still in the review process.
       FEMA is also in the process of establishing MOAs with other components.

       Currently, we must use (and require our grantees to use) a number of disparate systems from our
       legacy organizations [Office of Justice Programs for grants management system, FEMA
       financial system, and a separate system for Assistance to Firefighters Grants (AFG)] to manage
       billions of dollars of grant funds and thousands of grant awards. Consequently, there is some
       duplication and inefficiency. The Department, along with FEMA, is working on a Department­
       wide grants management system that should mitigate some of the systems issues.

       Finally, given the different requirements and specialization across FEMA's portfolio of grant
       programs, we cannot use the same peer review panel for all grant programs. The panelists are
       allowed to participate by their parent agency (whether it be Federal, State, or local) and they do
       not have the ability to devote weeks and months to these processes. In addition, not all panelists
       are qualified to review all applications. For example, an excellent panelist for AFG awards
       might be a total misfit reviewing an application for a non-profit security grant.




                                       Efficacy of DHS Grant Programs 


                                                      Page 29
 

Appendix B
Management Comments to the Draft Report




       Page 6

       Recommendation 3: Work with Congress and state grant administrators to identify
       opportunities and implement actions to streamline and standardize multiple preparedness grant
       program application processes.

       Response: FEMA concurs with this recommendation. FEMA has robust interaction with
       Congress, OMB, and numerous stakeholder communities. We routinely engage stakeholders in
       soliciting their feedback and recommendations and incorporate those into our program guidance
       and procedures as we deem they are beneficial to the overall program goals and in line with
       Congressional and Departmental goals.

       FEMA is currently standing up a Preparedness Task Force to be comprised of State, Tribal, local
       and private sector experts who will be charged with evaluating the Agency's preparedness
       efforts, including the structure and requirements of its grant programs. We expect Task Force
       recommendations on improving these and other activities by the end of the current fiscal year.

       Thank you again for the opportunity to comment on this draft report and we look forward to
       working with you on other issues as we both strive to improve FEMA.




                                     Efficacy of DHS Grant Programs 


                                                   Page 30
 

Appendix C
Description of Grant Programs

                   Homeland Security Grant Program
                   The Homeland Security Grant Program includes four programs
                   that fund activities to strengthen the Nation against risks associated
                   with potential terrorist attacks. Funding priorities focus on three
                   objectives: (1) measuring progress in achieving the National
                   Preparedness Guidelines; (2) strengthening improvised explosive
                   device attack deterrence, prevention, and protection capabilities;
                   and (3) strengthening preparedness planning. Funding activities
                   include preparedness planning, equipment acquisition (including
                   interoperable communications), training, exercises, management,
                   and administration.

                   The four programs listed below are awarded under the Homeland
                   Security Grant Program:

                          State Homeland Security Program: Supports terrorism
                          and catastrophic event preparedness by building and
                          sustaining capabilities at the state and local levels through
                          planning, organization, equipment, training, and exercise
                          activities. This program helps states implement state
                          homeland security strategies, the National Preparedness
                          Guidelines, the National Incident Management System, and
                          the National Response Framework.

                          Urban Areas Security Initiative: Directly supports the
                          national priority on expanding regional collaboration. This
                          program addresses unique multidisciplinary planning,
                          operations, equipment, training, and exercise needs of high-
                          risk, high-density urban areas.

                          Metropolitan Medical Response System: Assists
                          designated metropolitan areas to sustain and further
                          enhance regionally integrated all-hazards mass casualty
                          preparedness and response capabilities. Funding is
                          provided to designated localities to assist in maintaining
                          and updating plans, delivering training, purchasing
                          equipment and pharmaceuticals, and conducting exercises.

                          Citizen Corps Program: Supports Citizen Corps councils
                          with efforts to engage citizens in personal preparedness,
                          exercises, ongoing volunteer programs, and surge capacity
                          response; and to better prepare citizens to be fully aware,
                          trained, and practiced on how to prevent, protect, mitigate,
                          prepare for, and respond to all threats and hazards. This



                            Efficacy of DHS Grant Programs

                                       Page 31
Appendix C
Description of Grant Programs

                          program provides funding for planning, organizational,
                          equipment, training, exercise, and personnel needs.

                   Assistance to Firefighters Grant Program
                   Provides resources directly to fire departments and emergency
                   medical services organizations to obtain critically needed
                   equipment, protective gear, emergency vehicles, training, and other
                   resources to protect the public and emergency personnel from fire
                   and related hazards. This program supports the following
                   priorities: enhancing national capabilities, risk-based funding, and
                   interoperability.

                   Buffer Zone Protection Program
                   Supports the development and implementation of Buffer Zone
                   Plans for prevention and protection activities outside the perimeter
                   of critical infrastructure and key resource sites. The program
                   provides funding to states and territories for first responder
                   equipment and planning to build security and risk-management
                   capabilities to secure critical infrastructure from potential terrorist
                   attacks.

                   Commercial Equipment Direct Assistance Program
                   Enhances regional response capabilities, mutual aid, and
                   interoperable communications by providing technology and
                   equipment, together with training and technical assistance required
                   to operate that equipment, to public safety agencies in smaller
                   jurisdictions and certain metropolitan areas to prevent, deter, and
                   respond to terrorist attacks as identified in state homeland security
                   strategies.

                   Emergency Management Performance Grant Program
                   Assists state and local governments in efforts to sustain and
                   enhance the effectiveness of their all-hazards emergency
                   management programs. This program provides funding to states
                   and territories for emergency management planning, equipment,
                   training, and exercise activities.

                   Emergency Operations Center Grant Program
                   Intended to improve emergency management and preparedness
                   capabilities by supporting sustainable, secure, and interoperable
                   emergency operations centers. This program provides funding for
                   the construction or renovation of principal state, local, and tribal
                   emergency operations centers.




                            Efficacy of DHS Grant Programs 


                                       Page 32 

Appendix C
Description of Grant Programs

                   Interoperable Emergency Communications Grant Program
                   Provides planning, training, and exercise funding to states,
                   territories, and local and tribal governments to carry out initiatives
                   to improve interoperable emergency communication capabilities
                   and support the implementation of statewide communication
                   interoperability plans.

                   Port Security Grant Program
                   Provides funding to eligible ports for domain awareness including
                   port access control identification, training, and exercises; and
                   capabilities to prevent, detect, respond to, and recover from attacks
                   involving improvised explosive devices and other nonconventional
                   weapons. Program funding priorities focus on the highest risk port
                   systems and regional security cooperation.

                   Regional Catastrophic Preparedness Grant Program
                   Supports the eight most urgent national planning scenarios as
                   defined in the National Preparedness Guidelines. The program’s
                   goal is an integrated planning system that provides for regional all-
                   hazards planning for catastrophic events and the development of
                   necessary plans, protocols, and procedures to manage such an
                   event. This program focuses on high-risk urban areas and
                   surrounding regions where the impact will have the most
                   significant effect on our Nation’s collective security and resilience.
                   Funding priorities include developing enhanced regional plans and
                   addressing shortcomings in jurisdiction plans to support the
                   management of a catastrophic incident, creating regional planning
                   processes, and linking operational and capabilities-based planning
                   for resource allocation.

                   Transit Security Grant Program
                   Creates a risk-based effort for the protection of critical transit
                   infrastructure from terrorism, major disasters, and other
                   emergencies. Funding is provided to owners and operators of the
                   Nation’s critical transit infrastructure, including rail, intracity bus,
                   ferry systems, and Amtrak. Funding priorities include highest risk
                   systems in the largest metropolitan areas, project quality and
                   effectiveness, and regional security collaboration. Allowable
                   expenses include planning, operational costs, equipment, training,
                   and exercises.




                            Efficacy of DHS Grant Programs 


                                       Page 33 

Appendix D
Major Contributors to This Report

                   Michael Siviy, Director, Grants Management Division
                   Christine Haynes, Audit Manager
                   Kalimuddin Ahmad, Auditor
                   Barry Cleveland, Program Analyst
                   Kevin Donahue, Auditor
                   David Lu, Program Analyst
                   Sue Vernier, Auditor
                   James Bess, Referencer




                           Efficacy of DHS Grant Programs 


                                      Page 34
 

Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      Under Secretary for National Protection and Programs Directorate
                      Assistant Secretary for Infrastructure Protection
                      Chief Procurement Officer

                      Federal Emergency Management Agency

                      Administrator, Federal Emergency Management Agency
                      Assistant Administrator, Grant Programs Directorate
                      Federal Emergency Management Agency Audit Liaison
                      Grant Programs Directorate Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                              Efficacy of DHS Grant Programs 


                                         Page 35
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
